<html>
<title> - AVIATION SECURITY UNDER THE TRANSPORTATION SECURITY ADMINISTRATION: AN UPDATE ON SCREENING PASSENGERS, CHECKING BAGGAGE, TICKET COUNTER SECURITY, AND NEW TECHNOLOGY</title>
<body><pre>[Senate Hearing 107-1099]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1099

                      AVIATION SECURITY UNDER THE 
                TRANSPORTATION SECURITY ADMINISTRATION:
  AN UPDATE ON SCREENING PASSENGERS, CHECKING BAGGAGE, TICKET COUNTER 
                      SECURITY, AND NEW TECHNOLOGY

=======================================================================

                             FIELD HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 8, 2002

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
93-171                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

       0SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
      Jeanne Bumpus, Republican Staff Director and General Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 8, 2002...................................     1
Statement of Senator Boxer.......................................     1

                               Witnesses

Acree, Hardy, Director of Airports, Sacramento County Airport 
  System.........................................................    10
Bowens, Thella, Director, San Diego International Airport........     7
Green, Paul, Chief Operating Officer, Los Angeles World Airports.     4
Martin, John L., Director, San Francisco International Airport...     6
Stone, Admiral David, (Retired), Federal Security Director, Lax 
  International Airport, Los Angeles, Transportation Security 
  Administration; Accompanied by Ed Gomez, Federal Security 
  Director, San Francisco Airport; and General Mike Aguilar, 
  Federal Security Director, San Diego Airport...................    12
    Prepared statement...........................................    15

 
                      AVIATION SECURITY UNDER THE 
                        TRANSPORTATION SECURITY 
                     ADMINISTRATION: AN UPDATE ON 
                    SCREENING PASSENGERS, CHECKING 
                   BAGGAGE, TICKET COUNTER SECURITY,
                           AND NEW TECHNOLOGY

                              ----------                              


                        THURSDAY, AUGUST 8, 2002

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in the 
Commission Hearing Room, Administration Building, LAX 
International Airport, Los Angeles, Hon. Barbara Boxer, 
presiding.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Good morning. I would like to welcome 
everyone to this hearing of the Senate Commerce Committee in 
order to get an update on California airport security under the 
Transportation Security Administration.
    We are almost a month away from the 1-year anniversary of 
September 11th. As we all painfully know, that day the 
terrorists hijacked four commercial jets, all of which were 
headed to California, including three to this very airport. 
Included among the thousands killed in the attacks, 39 
Californians.
    Ever since September 11th, I have been working with other 
Members of the Commerce Committee to make air travel more 
secure. Last fall Congress passed and the President signed the 
Aviation and Transportation Security Act. I wrote the provision 
of that law that required air marshals to be on board all high-
risk flights with priority given to nonstop, long distance 
flights. Those were the flights that were hijacked. They had a 
full fuel load and a light passenger load and they were large, 
and therefore they were targeted.
    Because it is classified information, I cannot give you the 
numbers of air marshals that we now have on planes, but I can 
say that we are making good progress. But in my view, we have a 
lot more to go in that area, and behind the scenes, I am 
working to make sure that the TSA lives up to what our bill 
said to do, which gives priority to these long distance 
flights.
    I have been working hard again with Members of this 
Committee--we have wonderful Members of this Committee, with 
Senator Hollings being the Chair and Senator McCain being the 
Ranking Member, and the staff of the Committee, and we have 
several of them behind me--because to me, it is our absolute 
obligation to make air travel as safe as it can be.
    I would say today that air travel is more secure than it 
has ever been. I can say that and feel good about that. But I 
have to say I still do not believe it is as secure as it could 
be or it should be. So if I have a message here in this opening 
statement, it is to say that now is not the time to slow down 
or delay our efforts to increase and improve aviation security. 
The job is not done, and we just have to keep working. We 
cannot go backward.
    Today, I want to examine the status of California airports 
under the direction of the new Federal Transportation Security 
Administration. We will hear updates on passenger and 
checkpoint screening, baggage bomb detection, and ticket 
counter security. I want to briefly discuss why these issues 
are so important.
    First, passenger and checkpoint screening: At the beginning 
of July, just a month ago, I was shocked to read that 
checkpoint screeners at airports in Los Angeles and Sacramento 
were ranked in the bottom 5 airports for high failure rates. 
Los Angeles and Sacramento airports have failure rates of 41 
percent and 40 percent respectively. The examiners who were 
doing these tests did not even attempt to hide weapons and the 
screeners still did not find them.
    Two weeks ago, Transportation Secretary Mineta said at a 
Commerce Committee hearing that oh, well, those are the old 
screeners, pre-September 11. Well, that cannot be an excuse. 
Whether they are the old screeners or the new screeners, our 
screeners must be trained yesterday, and whether they are old 
or new does not make any difference. And I think that that type 
of excuse is just not going to wash with the public.
    When I read about the failure rates, I called those two 
airports and learned that they still had acting Federal 
security chiefs. And I am glad to say that since that call, Los 
Angeles has a full-fledged director. I am so happy to say that, 
and we're very happy with the choice. And I also learned this 
week that Sacramento also now has a new head, and I hope that I 
had something to do with it because on that day that I phoned 
over to Los Angeles, I felt the acting head at that time, had 
an understanding of what occurred and there was movement to 
change things. When I called to Sacramento, the individual that 
I spoke to was very unaware of the fact that the tests even had 
happened. In other words, TSA had never even informed the 
acting head of that airport that there was a 41 percent failure 
rate. So I was very distressed about that, and this individual 
just had not a clue as to what went wrong or what should be 
done. So I am really glad we now have a permanent person there. 
So that is the first area.
    Second, bomb detection in checked baggage: I am extremely 
concerned that the installation of baggage detection machines 
may not be completed by the congressionally mandated deadline, 
which is the end of the year. While DOT has met the deadline to 
screen all checked baggage, either by bag match, hand search or 
bomb sniffing dogs, we all know that bag match for example 
alone will do nothing to prevent a suicide bomber.
    It really amazes me. After we were attacked, we sent our 
troops halfway around the world, and we used such sophisticated 
weapons that they were able to go into caves and burrow into 
bunkers. So no one can convince me, no one--and if you are 
going to try, try, but I am being honest with you--no one can 
convince me, knowing American ingenuity and our can-do attitude 
as a people, that by the end of the year we will not be able to 
detect a bomb in a suitcase that is standing right in front of 
our feet when we have gone halfway around the world into an 
area nobody even knew and had bombs that burrowed into caves 
and bunkers. So think of it that way. There cannot be an 
excuse.
    Now, I know these machines are large and airports are 
developing plans to create space for them. That is an issue. We 
have to make it work. And today, I hope to hear from the 
airport officials about how the administration is working with 
the airports to develop and approve of these plans for these 
machines. We need these machines, and the administration needs 
to ensure that these baggage detection machines are in place by 
the deadline, period.
    Now, the House of Representatives passed a homeland 
security bill that slips the deadline. I do not understand how 
that could be part of a homeland security bill; turns it into 
homeland insecurity bill as far as I am concerned. So speaking 
for myself as one Senator, when we take up homeland security, I 
am going to fight against such a move.
    Third, the ticket counter security: There are still 
vulnerable spots at our airports. The breach of security at a 
ticket counter here in LA on July Fourth is an example. If all 
our airlines did not have two security guards at the site of 
the incident, the death toll would have been far more 
devastating. Put another way, there could have been a massacre. 
So what does that tell us? It tells us we need security at the 
ticket counters. As my children would have said when they were 
a lot younger, now they are grown up, ``duh.'' We need security 
at the ticket counters; very important.
    And I know and I compliment LAX for increasing the police 
presence in those areas. And I just want to make sure that you 
are reimbursed for that because you are supposed to be, and I 
want to talk to you about that. And I also want to know about 
what other airports are doing at their ticket counters.
    I am concerned about the mixed message I am getting from 
TSA about their involvement in this issue of ticket counter 
security. First when this incident happened they announced they 
were all over the problem. Then they backed away. And in a 
private meeting I had with our new head of TSA--and I wish him 
every good wish; I am going to work with him--he indicated this 
was an issue he was going to resolve. So I need to know what 
the status is there. We have a lot to get done if we are going 
to fulfill our responsibilities to Californians and the entire 
traveling public. So with that, we will get started.
    I will give you what the plan is. Our panel is Mr. Paul 
Green, COO of Los Angeles World Airports and Mr. John Martin 
from San Francisco International Airport, we welcome you. Ms. 
Thella Bowens, director of San Diego International Airport, we 
welcome you. Mr. Hardy--do I say it right?--``Acree.''
    Mr. Acree. Correct.
    Senator Boxer.--Director of Airport, Sacramento Airport 
System. And we also have Mr. David Stone of the Los Angeles 
International Airport accompanied by Mr. Ed Gomez of the San 
Francisco International Airport, Mr. Aguilar of the San Diego 
International Airport. They are all from the Transportation 
Security Administration. As I understand it, there is going to 
be one statement; is that correct?
    Admiral Stone. Yes.
    Senator Boxer. And who is going to deliver that?
    Admiral Stone. I will.
    Senator Boxer. Mr. Stone. And then I will ask questions. 
This is going to be a fast-moving type of a hearing because 
there are so many things to cover that I hope to do so. And I 
want to thank you all for being willing to be here today 
because to us, we cannot make progress without your help and 
your candor. So with that, let me hear from Mr. Paul Green, COO 
of Los Angeles World Airports.

 STATEMENT OF PAUL GREEN, CHIEF OPERATING OFFICER, LOS ANGELES 
                         WORLD AIRPORTS

    Mr. Green. Thank you. Good morning, Senator Boxer, and 
welcome back to Los Angeles International Airport. I am Paul 
Green, Chief Operating Officer for Los Angeles World Airports. 
For the record, Los Angeles World Airports is the city of Los 
Angeles department that owns and operates a system of airports 
comprising LAX, Ontario International, Palmdale Regional, and 
Van Nuys. LAX is the world's busiest origination and 
destination airport, meaning that more travelers and more 
luggage enter the worldwide aviation system at LAX than any 
other airport.
    Thank you very much for the opportunity to speak to you 
today regarding the vital public issue of aviation security and 
Los Angeles World Airports' commitment to compliance with the 
Aviation and Transportation Security Act.
    We have been working closely with the Transportation 
Security Administration and the air carriers to ensure we are 
doing our part to meet the key deadlines set forth in the new 
law. Communication and cooperation among all parties has been 
excellent. We are working together to achieve the goals of 
effective aviation security and efficient customer service.
    Working with a team of consultants, we defined existing 
conditions, monitored and evaluated new security requirements, 
developed recommended improvements required to implement the 
newly mandated security measures, and developed a prioritized 
program of implementation for both near term and long term.
    I am confident that we have sound plans in place to meet 
the November 19th passenger-screening deadline and the December 
31 deadline to screen 100 percent of checked baggage. The 
crucial caveat is that TSA's contractors take timely delivery 
at LAX of the necessary equipment and the requisite number of 
Federal employees are available to operate this equipment.
    I would like to turn briefly to our response to the July 
Fourth tragic shooting at LAX's Bradley terminal. The immediate 
law enforcement response was very effective. The investigation 
into the shooting is continuing. Within 1 week of the shooting, 
Mayor Hahn announced plans to expedite his security enhancement 
program at LAX to allow us to hire off-duty Los Angeles police 
officers to increase security in the terminal areas, which 
Senator Boxer alluded to. This action allows the daily 
deployment of armed police officers in each terminal area near 
ticket counters and waiting areas.
    Currently, 60 additional officers are being processed for 
training and are scheduled to graduate from the Airport Police 
Academy in January 2003. The off-duty LAPD officers will be 
assisting in the terminal areas for 6 months, until this 
training class of LAX officers graduates.
    Another recent aviation security initiative announced by 
Mayor Hahn involves a $15 million upgrade to LAX's perimeter. 
The perimeter security improvements will consist of 
approximately 8 miles of upgraded fencing surrounding the 
airport. The new fencing along large portions of the airport 
perimeter will include a 2-1/2-foot tall concrete rail with 8 
feet of heavy duty chain-link fence and six strands of barbed 
wire, intrusion detection devices, increased lighting, and 
closed-circuit television monitoring. The new security cameras 
will be controlled by security personnel who will be able to 
view the perimeter area through closed-circuit television 
monitors and be able to automatically zero in on any intruders.
    The perimeter security improvements also includes the 
expansion of ``sally port'' gate systems at all airfield entry 
points, which are used by tenant airlines, airport workers, and 
other authorized personnel whose jobs require access to high-
security areas that are off limits to the public. The devices 
consist of two-sided gates, which surround vehicles until they 
are cleared for entry.
    Finally, just last week, Mayor Hahn announced that more 
than 1,200 video cameras will be installed throughout the 
airport complex through another $15 million initiative. We will 
be adding cameras to all domestic terminals and all areas of 
the Tom Bradley International Terminal. The system will be 
integrated with existing video resources at LAX and will be 
administered by the Los Angeles Airport Police at a new, 
centralized monitoring station. In addition, video will be 
recorded and maintained for future use by law enforcement 
officials.
    We believe LAX will be the first airport in the United 
States to have such a comprehensive surveillance system. 
Airports in the United Kingdom and Hong Kong have had similar 
systems installed with excellent results.
    Thank you very much for the opportunity to provide you with 
this security status report. I will be pleased to answer any 
questions that you might have.
    Senator Boxer. Thank you. I am going to hold those until we 
hear from everyone.
    I also forgot to say that when we are done with this panel, 
we are all going to go look at some of the new technologies 
that are available to help us meet our security needs. I 
thought that might be interesting because in California we are 
really the home of a lot of those inventions and we have some 
of them. So we will all take a walk through after. Wonderful.
    Mr. Martin, welcome. Please proceed.

     STATEMENT OF JOHN L. MARTIN, DIRECTOR, SAN FRANCISCO 
                     INTERNATIONAL AIRPORT

    Mr. Martin. Good morning, Senator Boxer. I am John Martin. 
I am the director of the San Francisco International Airport. I 
am honored to appear before you this morning to testify on the 
challenges of aviation security under the Transportation 
Security Administration and provide the Committee with an 
update on screening passengers, checking baggage, ticket 
counter security, and new technology.
    I am pleased to provide any information necessary for this 
hearing or at any other point in order that we can work with 
Congress, the Department of Transportation, and the Homeland 
Security Administration to meet the challenge of ensuring 
passenger safety, while meeting customer service demands.
    SFO does strongly support those provisions passed by the 
U.S. House of Representatives in the Homeland Security Bill 
that allow for airport security modifications to provide a more 
measured approach. This flexibility will allow the TSA the 
opportunity to deploy 100 percent-automated checked baggage 
screening in all terminals. It is my sincere hope that the U.S. 
Senate will adopt a similar provision so that the TSA will be 
allowed the time necessary to implement safe and efficient 
screening equipment.
    SFO was one of the first airports in the country to deploy 
a fully integrated checked baggage inspection system that 
screens all baggage for international departing flights in our 
international terminal. We are currently in the process of 
upgrading this system to become the first airport to provide 
100 percent TSA-certified in-line Explosive Detection System 
(EDS) for all departing passenger baggage in the International 
Terminal, and this will be in place by the end of the year. We 
do appreciate the leadership of the TSA and especially Ed 
Gomez, who is the FFD in San Francisco, in helping to make this 
happen.
    As one of the 5 opt-out airports chosen to keep TSA-
certified security contractors in place for screening 
responsibilities, I am confident that TSA will be able to 
provide SFO with a skilled work force at adequate staffing 
levels. At the ticket counters, SFO has added police staffing 
that ensures that police are in place at all times in front of 
the ticket counters.
    As a model U.S. airport for safety and security, SFO 
believes that any alternative interim solution to 100 percent 
automated checked baggage screening for checked baggage 
screening would be ineffective and may result in less than 
optimal security and unacceptable delays to the traveling 
public.
    The TSA, the airports, and the airlines need the 
flexibility to provide a measured and responsible approach 
which will allow us the opportunity to deploy 100 percent 
automated checked baggage screening at all terminals. While 
security considerations are our first priority, in the view of 
our security staff and consultants' views, the TSA's deployment 
of trace detection equipment at ticket counters using the 
suggested methodology would do little to enhance explosive 
detection. Testing of the ETD equipment indicates that they 
have low detection rates, much lower than the in-line EDS 
equipment, and that they also have high false alarm rates.
    A comprehensive analysis of various alternatives conducted 
by SFO concludes that the conservative cost of the ticket 
counter ETD option would be at least three times as expensive 
as a permanent solution using the best technology, and this is 
due to the extraordinarily high recurring labor costs for the 
use of the trace detection equipment. I have submitted a 
detailed comprehensive analysis for the Committee for your 
review. *
---------------------------------------------------------------------------
    * The information referred to has been retained in Committee files.
---------------------------------------------------------------------------
    Mr. Martin. The lobbies at SFO and at many airports across 
the country are not capable of supporting large volumes of 
passengers that will result from baggage screening operations 
at the ticket counter. These infrastructure constraints will 
result in the implementation of a project that exposes the 
traveling public to an environment that is highly congested and 
in itself could expose passengers to potential increased 
security threats at the front of the terminal building and 
adjacent airport roadways.
    Passenger processing times would also increase to levels 
that may well be unacceptable to the traveling public and 
result in severe economic implications for the airlines. From a 
security and customer service point of view, airports need to 
move passengers and their luggage with the best available 
equipment, the best available technology and a full level of 
staffing. Passenger processing times must decrease, not 
increase, while the industry and governmental agencies continue 
to identify and deploy security that meets the highest 
standards. We must develop innovative ways of handling the 
flying public that allows for continuous movement of passengers 
from the time the passengers enter the front door of the 
terminal building through the ticket counter line, through the 
checking of the baggage, and through the security screening 
process.
    The compromise approach passed by the House in the Homeland 
Security Bill will allow airports and the TSA the opportunity 
to build and install an automated checked baggage screening 
system that provides effective and long term security to the 
traveling public, and I believe that that installation could be 
completed by December 31, 2003.
    Senator Boxer, I once again thank you for the opportunity 
to appear before you today. This is clearly the most important 
issue facing U.S. airports and the aviation industry. And if I, 
or anyone on my staff, can be of any help as we look to 
Congress for help to meet the challenges, please do not 
hesitate to call me. This concludes my remarks, and I would be 
happy to answer any questions.
    Senator Boxer. Thank you, Mr. Martin. Since we have some 
basic disagreements, it will be interesting. We'll have a 
little chance to debate those.
    Ms. Thella Bowens from San Diego, welcome.

 STATEMENT OF THELLA BOWENS, DIRECTOR, SAN DIEGO INTERNATIONAL 
                            AIRPORT

    Ms. Bowens. Good morning. I Thank you, Senator Boxer, for 
the opportunity to add my comments to this very important 
conversation on airport security.
    The tragic events of last year have caused all airports to 
recommence to the absolute need for expanding and improving 
aviation security programs, particularly ones that protect 
travelers from the kinds of threats experienced on September 
11th.
    Since the passage of the Aviation Transportation Security 
Act and the creation of the Transportation Security 
Administration, we at San Diego International Airport have 
remained committed to assisting the TSA in implementing 
federally mandated security measures. Theirs is an enormous and 
difficult mission, made more so by the stringent time lines 
established by Congress, and TSA should be commended for those 
efforts.
    Our challenge at San Diego International has been how best 
to handle the installation of new security equipment and 
processes in a highly constrained facility while ensuring the 
airport continues to deliver the highest quality level of 
customer service and thereby support the good health of the 
industry.
    Security checkpoint lines are longer now than before 9-11, 
certainly, but they are managed carefully and moving 
efficiently. To date, passenger wait times have continued to 
decrease--we are at less than 20 minutes average in our 
facility--as travelers become familiar with new requirements 
and plan accordingly. In September/October of this year, we 
will experience the installation of additional checkpoint 
equipment, improved personnel training, and new streamlined 
procedures. We will know then if our joint efforts are truly 
successful in achieving improved security checkpoint operations 
and continued convenient access to air travel services.
    We are in line to meet the November deadline for checkpoint 
screening. The challenge for providing for travelers' safety by 
screening 100 percent of checked baggage for explosive material 
by December 31st is another matter altogether.
    The requirement to install Explosive Detection Systems in 
the magnitude necessary to meet congressional screening 
requirements at an airport with the physical constraints of 
SDIA is truly overwhelming. Adding significantly to the 
difficulty and expense of such an enterprise is the ever-
approaching December 31st deadline.
    Given the lack of availability of Explosive Detection 
Systems, EDS's, and the complexity of installing the equipment 
in existing baggage handling systems, which is the better 
approach to this installation, we do not expect to be able to 
accomplish this task in the near term.
    We are moving ahead to install the less effective and 
radically more disruptive Explosive Trace Detectors, ETD's, 
together with the EDS's that do become available, in the public 
areas of our terminals. This is the approach that has been 
adopted by the TSA as an interim measure to meet the 
requirements of the law as it is now written.
    The process that is currently underway at SDIA, again, with 
the total cooperation of TSA personnel, led by an exceptional 
Federal Security Director, Mike Aguilar, is to assess the 
numbers of explosive trace detection devices required and their 
appropriate locations. Working together, we have come to a very 
preliminary understanding of the number of ETD's required and, 
if they are installed in the manner recommended, their presence 
will seriously disrupt passenger circulation in already 
congested lobbies and concourses.
    Additionally, screening and property search processes using 
ETD's will generate long passenger waiting lines that will 
serve to further discourage air travel, not only at SDIA, but 
throughout an already troubled industry. More importantly, this 
approach will not provide the optimal level of increased safety 
and security for the traveler. Instead of the ``quick fix'' 
approach using ETD's, we at San Diego International join with 
other large hub airports in suggesting an alternative solution.
    It is our firm belief that an integrated and automated 
Explosive Detection System is the most optimal and only 
workable approach at SDIA. Rather than forcing airports into an 
interim solution to meet the statutory deadline, we recommend 
incrementally expanding baggage screening capabilities as 
facilities, staff, and machines become available. This will not 
result in a diminished level of protection,as we will be using 
the same means as today--canine detection, positive bag 
matching, hand searches, and other methods that are in place.
    This measured approach would provide the TSA more time to 
implement an optimal solution on an airport-by-airport basis. 
Such an approach avoids a large waste of investment in both 
equipment and manpower that would inevitably be replaced by a 
more integrated, efficient, and cost-effective system.
    As a separate but equally critical issue, I would like to 
touch on an area of airport security that has gone largely 
unaddressed. The need to protect cargo shipments, both cargo in 
the belly of passenger aircraft and cargo carried by air 
freighters, is one that we as an industry and the TSA should 
move forward with as a priority. Because of the nature of 
integrated cargo operations conducted at remote sites on the 
airport or off-airport ``through the fence,'' to use an 
industry term, this is an area of vulnerability directly linked 
to perimeter security, as well. I submit that improvements in 
this critical area can be made a priority while we phase in 100 
hundred percent bag screening.
    Finally, I would like to invite the Committee's attention 
to the role of local law enforcement in providing the uniformed 
security presence at checkpoints and, eventually, throughout 
the airport. I believe the use of local police officers who are 
knowledgeable and trained in matters of aviation security, 
local law enforcement, and public safety is superior to having 
a Federal force at the airport. Experience shows me that there 
is no substitute for locally trained and certified police 
officers who know the airport and the region and are responsive 
to its people and its diverse cultures. We are using local 
police to increase law enforcement now, as is present at the 
ticket counter.
    I do urge you to support amending the current legislation 
to provide additional time for a more comprehensive approach to 
solving the passenger screening responsibility. As stated in 
the letter forwarded to the Senator and Secretary Mineta 
earlier this year, we are truly concerned that the proposed 
interim response to baggage screening designed to meet the 
December 31st deadline will result in a less than optimal 
approach to security, will create unacceptably long wait times 
to the traveling public, and will result in an unnecessary 
expensive solution.
    Thank you for the opportunity to speak, and I am pleased to 
answer any questions.
    Senator Boxer. Thank you. We will get into those in a bit.
    Mr. Acree, welcome.

  STATEMENT OF HARDY ACREE, DIRECTOR OF AIRPORTS, SACRAMENTO 
                     COUNTY AIRPORT SYSTEM

    Mr. Acree. Good morning, Senator Boxer. My name is Hardy 
Acree, Director of Airports for the Sacramento County Airport 
System.
    First, I would like to take this opportunity to thank you, 
Senator Boxer, for the invitation to be here today to speak on 
the very important issues of airport security. I applaud the 
Senator for your efforts with helping to get answers to some 
very important questions.
    My comments today are intended to be constructive and not 
overly critical of TSA. Heaven knows they have been given a 
huge task. I am here to share with you our concerns and, yes, a 
sense of frustration with how the process is working and in 
some cases not working.
    First, at the risk of sounding trite, on the subject of 
improved airport security, it is safe to say that while some 
progress has been made, it would be more accurate to say that 
much remains to be done. And as we approach the first 
anniversary of the tragic events of September 11th, the 
deadline for meeting certain security mandates looms ever 
closer.
    In Sacramento we have two concerns regarding security 
checkpoints: First, from a customer service perspective, we 
have seen our screening checkpoint queueing lines increase 
dramatically over the last 2 months. During peak times, the 
lines frequently stretch all the way to bag claim, causing 
excessive delays, with some passengers missing their flights.
    To compound the problem, our June passenger counts were the 
second highest on record with over 817,000 passengers traveling 
through the airport. We are one of only a handful of airports 
nationwide where passenger activity is exceeding last year's 
record levels. This is a trend we hope continues but which will 
only add to the challenges at the screening checkpoints.
    Second, from an operational perspective, as you said, it 
came as a shock for us to hear that Sacramento International 
ranked in the bottom 5 for airports with the worst test failure 
rate at the screening checkpoints. What happened that caused 
Sacramento International to go from an airport with one of the 
best screening compliance records to one of the worst since TSA 
took over? Or as Gordon Bethune might say, what happened that 
we went from first to worst?
    In an attempt to get answers, we recently met with 
representatives from TSA to discuss the issue. We were told 
that TSA is in the process of hiring and training the personnel 
needed to staff the screening checkpoints with Federal 
employees. From our perspective, the problems appear to be 
attributed to an absence of adequate supervision oversight and 
the lack of a customer service focus. Now that the Federal 
security director for Sacramento International is onsite, we 
trust these issues will get resolved in the near term.
    With regards to the checked bag screening requirements, TSA 
was given the monumental task of reinventing the entire U.S. 
transportation security system. For airport security, many in 
the industry consider the time given TSA to make the necessary 
changes to be adequate for some airports but inadequate for 
others.
    What we are discovering as we go through this very complex 
and people-intensive process is that one size does not fit all. 
What works in Sacramento may not work at LAX and vice versa. As 
I sit here today, I cannot tell you whether or not TSA will be 
successful in Sacramento and meet the December 31st deadline 
for 100 percent checked bag screening. What I can say, however, 
is that Sacramento is committed to doing everything in its 
power to make it happen. But until we see a definitive plan for 
how TSA intends to meet the requirement, it is impossible for 
me to say whether or not it can be done by December 31st.
    Needless to say, I am concerned. It is August the 8th, and 
I have yet to see such a plan. I am concerned because if their 
plan calls for the airport to make significant facility 
modifications to accommodate the installation of EDS and ETD 
machines, there is no way the airport can respond with any 
substantive construction contracts in 4 and 1/2 months. Both 
the airport and TSA may well need the flexibility of additional 
time, but I will not know until I see their plan.
    If, on the other hand, TSA comes in with a plan that calls 
for a similar ``plop and plug'' approach--that is technical 
terms--installing X number of EDS and ETD machines in our 
terminal lobby, then where are the passengers going to go? Our 
terminal lobby space is in limited supply to begin with and 
that concerns me.
    In that regard, customer service considerations must play a 
meaningful role in any implementation plan, regardless of which 
technology, solution, or combination thereof is proposed. The 
airport system cannot approve a plan that does not give 
adequate consideration to the customer. Lest we forget, it is 
the customer who is the source of all our revenues, and it is 
imperative that we not lose sight of that.
    I hope you can see my concerns. Time is growing short, and 
TSA lacks the sheer number of personnel who are properly 
trained to operate the screening checkpoints. And we have yet 
to see a plan for meeting the December 31st deadline.
    In closing, we all share the same goal; that of having an 
airport security system that instills confidence in the 
traveling public and restores credibility in a security system 
that for too long has been neglected.
    Again, thank you for allowing me the opportunity to speak 
before you today.
    Senator Boxer. Thank you, sir, for your candor.
    And now it is my pleasure to call on Mr. David Stone of the 
Los Angeles International Airport. And he is the head, the 
Federal head, of that airport. In other words, since we have 
decided that the Federal Government will be responsible for 
security, we have called in his good people, and this is his 
challenge. He is going to be speaking on behalf of the TSA 
folks that are here.

        STATEMENT OF ADMIRAL DAVID M. STONE (RETIRED), 
         FEDERAL SECURITY DIRECTOR, LAX INTERNATIONAL 
        AIRPORT, TRANSPORTATION SECURITY ADMINISTRATION;
           ACCOMPANIED BY ED GOMEZ, FEDERAL SECURITY 
       DIRECTOR, SAN FRANCISCO AIRPORT; AND GENERAL MIKE 
              AGUILAR, FEDERAL SECURITY DIRECTOR, 
                       SAN DIEGO AIRPORT

    Admiral Stone. Good morning, Madam Chairwoman.
    It is a pleasure to appear before you today to discuss 
airport security at Los Angeles International Airport, San 
Francisco International Airport, and San Diego International 
Airport. I am David Stone, the Federal Security Director here 
at LAX. With me this morning are Ed Gomez, the Federal Security 
Director at San Francisco, and Mike Aguilar, the Federal 
Security Director at San Diego.
    We are all pleased to represent Admiral James Loy, the 
Acting Under Secretary of Transportation for Security. I thank 
you for the opportunity to speak to you today about the 
challenges we face in California in ensuring the highest 
standard of aviation security. I have a short opening statement 
to give, and then we will be available to answer your 
questions. I have submitted a statement for the record.
    By way of introduction, Ed Gomez is a retired chief of the 
California Highway Patrol, Mike Aguilar recently retired as a 
Brigadier General in the United States Marine Corps, and I 
recently retired as a Rear Admiral in the United States Navy. 
Ed Gomez took up his post in San Francisco at the end of May, 
Mike Aguilar arrived in San Diego on April 1st, and I arrived 
here at LAX on July 15th.
    I would also like to mention that TSA has selected Federal 
security directors for several other airports in California. We 
now have FSDs in place at 9 of the 12 California airports that 
will have FSDs. The FSDs at the other three sites are in 
various stages of the selection process. As Federal security 
directors, we will fill a crucial role in aviation security by 
providing a clear line of authority for security at our 
Nation's airports.
    We report to Michael Robinson, the Associate Under 
Secretary for Aviation Operations. We provide day-to-day 
operational leadership for the Federal security 
responsibilities at our assigned airports. The FSD is the 
ranking TSA authority responsible for the leadership and the 
coordination of TSA security activities within the airport, 
including planning, execution, and management of coordinated 
security services.
    The FSD has three primary responsibilities: First, 
screening operations for passengers and their carry-on 
property, as well as all checked baggage and cargo that will be 
carried on passenger flights. Law enforcement: We serve as the 
aviation security liaison to local intelligence and law 
enforcement communities. We receive, assess, distribute, and 
ensure that we effectively use intelligence and law enforcement 
information. We also coordinate and implement security 
countermeasures with appropriate departments and law 
enforcement agencies, airports, and air carriers. And third, 
regulatory: We are responsible for ensuring compliance with TSA 
aviation security regulations.
    The FSD is responsible for securing airports and air 
carriers. If a particular security threat to a gate, concourse, 
terminal, airport, or related facility cannot be addressed in a 
way adequate to ensure the safety of passengers, crew, or other 
individuals, the FSD may clear, close, or otherwise secure the 
affected facilities.
    Similarly, if a security threat to a flight or series of 
flights cannot be addressed in a way adequate to ensure the 
safety of passengers and crew, the FSD will have the authority 
to cancel a flight or series of flights, delay a flight or 
series of flights, or return flights to an airport after 
departure, divert such flights, or otherwise appropriately 
handle these critical situations. These are important 
responsibilities that we take seriously.
    In consultation with TSA managers, the FSD provides for 
training, supervision, and equipment for the screener work 
force and Federal TSA law enforcement officers. Furthermore, 
the FSD will ensure that screeners meet and maintain 
eligibility for employment and that law enforcement officers 
are properly deployed at screening locations. `This will result 
in our supervision of large numbers of new Federal employees at 
Los Angeles International and San Diego Airport. The exact 
numbers are now under assessment.
    Ed Gomez will have the responsibilities that Mike Aguilar 
and I have without direct screener oversight. As provided for 
under the Aviation and Transportation Security Act, San 
Francisco is one of 5 airports in the country selected for a 
contract screening pilot program. San Francisco is the only 
California airport that is participating in this program. 
Instead of screeners who are Federal employees of TSA, at San 
Francisco the screeners will operate under a contract awarded 
by TSA. The contract screeners must have the same 
qualifications as TSA screeners and must follow the same 
training requirements. They are entitled to receive the same 
pay and benefits as TSA screeners. This contracting process has 
just begun. TSA expects to award a contract in early October.
    We expect to have a strong law enforcement presence. TSA is 
responsible for enforcing Federal laws and regulations with 
respect to aviation security at security screening checkpoints, 
in the secure areas of the airport, and at perimeter areas. In 
some airports, we will provide TSA law enforcement officers; at 
other airports, we are contracting with State or local law 
enforcement agencies to assist in the passenger checkpoint 
enforcement work. Additionally, our Federal air marshals will 
provide on-board security on high-risk flights.
    Madam Chairwoman, we are all well aware of the tragedy that 
occurred at this airport on July 4th. The fact that the gunman 
does not appear to have been part of an organized terrorist 
plot is of little solace to the innocent victims. In the wake 
of this incident, we understand the call for additional support 
from TSA to provide security in the public concourse areas of 
the airport terminals. TSA has a five-pronged approach to this 
issue.
    First, TSA's own law enforcement officers or State and 
local LEOs working under contract to TSA will chiefly staff the 
secure areas of airports, and our Federal air marshals will 
serve on board commercial aircraft.
    Second, TSA does have an important, broader responsibility: 
to coordinate and approve the overall security plan for all 
commercial airports. To do so, the FSD at each airport will 
work closely with State, local, and airport law enforcement 
officers and the airport management team and other Federal 
agencies operating at commercial airports. All of us here today 
are pledged to do this.
    Third, law enforcement--local law enforcement will continue 
to have responsibility for enforcement in the public areas of 
the airport and will coordinate with TSA on the overall 
security plan.
    Fourth, our limited use of TSA's law enforcement officers 
outside of the immediate areas associated with screening will 
be primarily to assess and make recommendations for security 
improvements. This is consistent with the ATSA, the authorizing 
legislation that Congress passed. Of course, if there is an 
incident where it is appropriate to assist local law 
enforcement officers, we certainly will do so to the extent 
possible.
    Finally, we are already partnering successfully with State, 
local and airport law enforcement authorities nationwide. These 
officers are assisting TSA in meeting our statutory 
responsibilities at the passenger screening checkpoints. TSA is 
seeking to clarify its authority to extend these partnerships 
beyond November 19th of this year.
    I would like to briefly discuss the plans to Federalize our 
three airports to meet the two critical statutory deadlines. 
The first is to require the screening of all passengers with 
Federal screeners, with the exception of the contracting 
screening pilot program in San Francisco, by November 19th, 
2002.
    The second is to ensure that all checked baggage is 
screened for explosives by December 31st, 2002. As you can 
imagine, this is an extraordinary challenge to meet at 429 
airports throughout the country. Our headquarters is working 
closely with our major contractors that are assisting us in 
this effort. Contractors are onsite, and airport assessments 
have begun in order to meet the statutory deadlines. However, 
as you recently heard from Secretary Mineta, the amount of 
money available to TSA this year has necessitated a 
reassessment of its rollout strategy. Naturally, our 
headquarters in Washington, DC will keep the Committee informed 
of the results of this reassessment.
    In keeping with our mandate from Admiral Loy, all FSDs 
pledge to have open lines of communication with airport 
operators, air carriers, and other airport stakeholders, 
Members of Congress, local officials, State and local law 
enforcement officials and their agencies, and the many Federal, 
State, and local agencies with whom we must work cooperatively. 
Mike Aguilar, Ed Gomez, all of the other FSDs in California, 
and I will continue to work hard on this in the coming weeks 
and months. The three of us have already begun this effort, and 
we appreciate the support and cooperation from our airport 
partners.
    Madam Chairwoman, all of us on this panel, and indeed, all 
TSA employees throughout the country, are keenly aware of the 
tragic link between California and the terrorist attack on our 
Nation on September 11. We know that all four planes that were 
hijacked by the terrorists were bound for California--three of 
those flights were destined for LAX; the fourth was bound for 
San Francisco. Many California residents perished on that day. 
Our goal is to ensure a level of security at our airports here 
in California, and everywhere in our great Nation, so that a 
tragedy like September 11 never happens again.
    We all welcome your support and that of all Californians. 
Mike Aguilar, Ed Gomez, and I will be pleased to answer your 
questions.
    [The prepared statement of Admiral Stone follows:]

    Prepared Statement of Admiral David M. Stone (retired), Federal 
 Security Director, LAX International Airport, Transportation Security 
  Administration; accompanied by Ed Gomez, Federal Security Director, 
   San Francisco Airport; and General Mike Aguilar, Federal Security 
                      Director, San Diego Airport

    Good morning Madame Chairwoman. It is a pleasure to appear before 
you today to discuss airport security at Los Angeles International 
Airport (LAX) San Francisco International Airport (SFO) and San Diego 
International Airport (SAN). I am David Stone and I am the newly 
arrived Federal Security Director here at LAX. With me this morning are 
Ed Gomez the Federal Security Director at SFO and Mike Aguilar the 
Federal Security Director (FSD) at SAN. Mike is the senior member of 
our group having arrived at SAN at the end of March of this year. We 
are all pleased to represent ADM James Loy the Acting Under Secretary 
of Transportation for Security. I thank you for the opportunity to 
speak to you today about the challenges we face in California in 
ensuring the highest standard of aviation security.
    I would like to take a few moments to briefly introduce us to you. 
Ed Gomez is a retired Chief of the California Highway Patrol (CHP) with 
over 13 years experience as a member of their top management executive 
team. He headed a division with over 1,400 CHP employees. As part of 
his 33-year long career in law enforcement Ed has coordinated law 
enforcement resources during numerous special events and disasters such 
as the 1992 Los Angeles riots and the devastating Northridge 
Earthquake. Ed is a member of the F.B.I. National Executive Institute 
and has attend the United States Secret Service Dignitary Protection 
Course. Ed has a Master's degree in Public Administration.
    Mike Aguilar recently retired as a Brigadier General in the United 
States Marine Corps. During a distinguished 30-year career in the 
Marines Mike served in a number of key assignments including the 
Commanding General Fleet Marine Forces South and the Deputy Commander 
U.S. Marine Forces South. Mike served in Operations DESERT SHIELD and 
DESERT STORM and has flown helicopters for many years logging thousands 
of hours of accident free flights. Mike holds a Master's Degree in 
Strategic Studies and National Security Affairs.
    I retired as a Rear Admiral in the United States Navy. My last 
assignment was as Director Environmental Protection Occupational Health 
and Safety in the Office of the Chief of Naval Operations. I previously 
served as the Commander of the Nimitz Battle Group where I was 
responsible for organizing training and deploying over 5,000 sailors. I 
also commanded the United States Middle East Force in Manama Bahrain 
and served as the first United States Flag Officer to command NATO's 
Maritime Immediate Reaction Force ``The Standing Naval Force 
Mediterranean.'' I graduated from the U.S. Naval Academy and hold a 
Masters' degree in National Security Affairs from the U.S. Naval 
Postgraduate School and in National Security and Strategic Studies from 
the U.S. Naval War College. I also earned a Masters Degree in 
Management from Salve Regina College.
    I would also like to mention that TSA has selected FSDs for several 
other airports in California. We now have FSDs in place at 9 of the 12 
California airports that will have FSDs. The FSDs at the other three 
sites are in various stages of the selection process.
    I believe that we bring a wealth of experience talent and 
commitment to this important position. As Federal Security Directors we 
will fill a crucial role in aviation security by providing a clear line 
of authority for security at our nation's airports. We report to 
Michael Robinson the Associate Under Secretary for Aviation Operations. 
We provide day-to-day operational leadership for the federal security 
responsibilities at our assigned airports. The FSD is the ranking TSA 
authority responsible for the leadership and coordination of TSA 
security activities within the airport including the planning execution 
and management of coordinated security services.
    The FSD has three primary responsibilities: (1) screening 
operations for passengers and their carry-on property all checked 
baggage and cargo that will be carried on passenger flights; (2) law 
enforcement: serving as the aviation security liaison to local 
intelligence and law enforcement communities. The FSD receives assesses 
distributes and ensures the utilization of intelligence and law 
enforcement information as appropriate. We also coordinate and 
implement security countermeasures with appropriate departments and law 
enforcement agencies airports and air carriers; and (3) regulatory: 
responsible for ensuring compliance with TSA aviation security 
regulations.
    The FSD is responsible for securing airports and air carriers. If a 
particular security threat to a gate concourse terminal airport or 
related facility cannot be addressed in a way adequate to ensure the 
safety of passengers crew or other individuals the FSD may clear close 
or otherwise secure the affected facilities. Similarly if a security 
threat to a flight or series of flights cannot be addressed in a way 
adequate to ensure the safety of passengers and crew the FSD will have 
the authority to cancel a flight or series of flights delay a flight or 
series of flights or return flights to an airport after departure 
divert such flights or otherwise appropriately handle these critical 
situations.
    In consultation with appropriate TSA managers the FSD provides for 
appropriate training supervision and equipment for the screener 
workforce and Federal TSA Law Enforcement Officers (LEOs). Furthermore 
the FSD will ensure that screeners meet and maintain eligibility for 
employment and that LEO's are deployed at screening locations in 
accordance with applicable statutory standards. This will result in my 
supervision of approximately 1,850 passenger and baggage screeners at 
LAX. Mike Aguilar will oversee over 650 screeners at SAN.
    Ed Gomez will have the responsibilities that Mike Aguilar and I 
have without direct screener oversight. This is because San Francisco 
will operate in a different setting. As provided for under the Aviation 
and Transportation Security Act San Francisco was one of five airports 
in the country selected for a contract screening pilot program. San 
Francisco is the only California airport that is participating in this 
program. Instead of screeners who are federal employees of TSA the 
estimated 1,000 contract screeners at San Francisco will operate under 
a contract awarded by TSA. The contract screeners must have the same 
qualifications as TSA screeners and must adhere to the same training 
requirements and they will be entitled to receive the same pay and 
benefits as TSA screeners. This contracting process has just begun and 
TSA has issued a Synopsis of the procurement. TSA expects to award a 
contract in early October. The contract may be awarded to individual 
contractors or in one bundle depending on how the offers are evaluated 
to determine how the best interests of the Government may be met.
    We expect to have a strong law enforcement presence in place. TSA 
will be responsible for enforcing Federal laws and regulations with 
respect to aviation security at security screening checkpoints in the 
secure areas of the airport and at perimeter areas. In some airports we 
will provide TSA employees as Law Enforcement Officers; at other 
airports we are contracting with state or local law enforcement 
agencies to assist in the passenger checkpoint enforcement work. 
Additionally our Federal Air Marshals will provide on-board security on 
high-risk flights.
    Madame Chairwoman we are all well aware of the tragedy that 
occurred at this airport on July 4. The fact that the gunman does not 
appear to have been part of an organized terrorist plot is of little 
solace to the innocent victims. In the wake of this incident we 
understand the call for additional support from TSA to provide 
screening in the public concourse areas of the airport terminals. TSA 
has a five-pronged approach to this issue.

  <bullet> First TSA's own Law Enforcement Officers or LEOs working 
        under contract to TSA will chiefly staff the secure areas of 
        airports and our Federal Air Marshals will serve on board 
        commercial aircraft.

  <bullet> Second TSA does have an important broader responsibility: to 
        coordinate and approve the overall security plan for all 
        commercial airports. To do so the Federal Security Director at 
        each airport will work closely with State local and airport law 
        enforcement officers and the airport management team and other 
        federal agencies operating at commercial airports. All of us 
        here today are pledged to do this.

  <bullet> Third local law enforcement will continue to have 
        responsibility for enforcement in the public areas of the 
        airport and will coordinate with TSA on the overall security 
        plan.

  <bullet> Fourth our limited use of TSA's law enforcement officers 
        outside of the immediate areas associated with screening will 
        be primarily to assess and make recommendations for security 
        improvements. This is consistent with ATSA the authorizing 
        legislation that Congress passed. Of course if there is an 
        incident where it is appropriate to assist local law 
        enforcement officers we certainly will do so to the extent 
        possible.

  <bullet> Finally we are already partnering successfully with State 
        local and airport law enforcement authorities nationwide. These 
        officers are assisting TSA in meeting our statutory 
        responsibilities at the passenger-screening checkpoints. TSA is 
        seeking to clarify its authority to extend these partnerships 
        beyond November 19 of this year.

    I would like to briefly discuss the plans to federalize our three 
airports to meet the two critical statutory deadlines. The first is to 
require the screening of all passengers with Federal screeners (with 
the exception of the contracting screening pilot program at San 
Francisco and four other airports) by November 19, 2002. The second is 
to ensure that all checked baggage is screened for explosives by 
December 31, 2002. As you can imagine this is an extraordinary 
challenge to meet at 429 airports throughout the country. Our 
Headquarters is working closely with our major contractors that are 
assisting us in this effort. Contractors are on site and airport 
assessments have begun in order to meet the statutory deadlines. 
However as you recently heard from Secretary Mineta the amount of money 
available to TSA this year has necessitated a reassessment of its 
rollout strategy. Naturally our Headquarters in Washington DC will keep 
the Committee informed of the results of this reassessment.
    In keeping with our mandate from ADM Loy all FSDs pledge to have 
open lines of communication with airport operators air carriers and 
other airport stakeholders Members of Congress local officials state 
and local law enforcement officials and their agencies and the many 
federal state and local agencies with whom we must work cooperatively. 
Mike Aguilar Ed Gomez all of the other FSDs in California and I will 
work hard on this in the coming weeks and months.
    Madame Chairwoman all of us on this panel and indeed all TSA 
employees throughout the country are keenly aware of the tragic link 
between California and the terrorist attack on our Nation on September 
11. We know that all four planes that were hijacked by the terrorists 
were bound for California--three of those flights were destined for LAX 
the fourth was bound for San Francisco. Many California residents 
perished on that day. Our goal is to ensure a level of security at our 
airports here in California and everywhere in our great Nation so that 
a tragedy like September 11 never happens again.
    We all welcome your support and that of all Californians.
    Thank you for the opportunity to testify before you and share the 
challenges that the Federal Security Directors in California face today 
and for your continuing support of the Transportation Security 
Administration. Mike Aguilar Ed Gomez and I will be pleased to answer 
any questions you may have.

    Senator Boxer. Thank you so much.
    I am going to skip around here because there are a few 
issues I want to dig a little bit deeper into. I guess, Mr. 
Martin, your comments that if you put these other machines in 
as an interim solution, you will have a lot of lines, you are 
going to expose the public to more security problems, I have a 
problem with that. I think it is an excuse. Let me say why: If 
we have adequate security in the lobbies, in the ticket 
counters, that is going to be a prevention, number one.
    Number two--and this goes to Ms. Bowens' and Mr. Martin's 
remarks, I think, more than the others--you keep stressing 
``customer friendly.'' This is important, and to some degree, 
Mr. Acree said that we have got to make sure people move 
through and so on and so forth. I just want you to respond to 
this, and maybe it is just a disagreement we have. But I fly. I 
am flying more than I am standing still. And I have talked to 
people, and I have talked to employees and passengers and so on 
and so forth.
    My concentration on this safety issue, which has been, I 
have to admit, exceedingly focused and making people 
uncomfortable, which I am going to do today to you, which I 
apologize for, but it is just the only way I can get to the 
bottom of things, is because I believe in my heart if there is 
just one more incident like the one--the several we had on 
September 11th, that the blow to the airline industry, the blow 
to airport travel, will be so extraordinary that it will make 
your comments, in retrospect, just seem completely out of touch 
with reality.
    Oh, my God, people are waiting an extra 15 minutes. People 
aren't thrilled to do this, but aren't there other ways to deal 
with it other than slipping a deadline? And it is like ``The 
dog ate my homework.'' We had a year and a half knowing this 
was coming. LAX is going to meet the deadline in terms of the 
bomb detection. I appreciate that very much. But, you know, who 
is to say in another year, ``Oh, my goodness, we can't, we 
won't, we can't.'' There are other ways to address the issue of 
customer satisfaction, and one might be a trusted traveler 
program.
    Now, I, myself, have been patted down and pulled aside at 
least 15 to 20 times because I travel so much. In fact, on the 
one hand, it is a great signal to everybody that no one is 
getting a free ride here, but on the other hand, it is a bit of 
a waste of time to have three people on a United States Senator 
who is five feet tall and a grandma, and is not such a 
threatening profile.
    So if people are willing to give up some of their privacy, 
like if I agree, OK, I will give up some of my privacy, I will 
do some genetic--let some machine test my iris in my eye or my 
fingerprint or whatever, and I am willing to go into such a 
program, and let us just say a third of the traveling public is 
willing to go into such a program and maybe even more--granted, 
it is a voluntary thing. They give up their privacy. If they do 
not want to do it, fine. Now you have got a third of the people 
you can treat a little differently, relieving this issue that 
you all talk about at the airports--which I understand your 
angst when you see long lines--but wouldn't that be a better 
way to go other than saying, well, we cannot put a trace 
machine in the lobby because it will be crowded in the lobby? I 
am just trying to get your sense of it.
    Mr. Stone, I do not know where TSA comes down on the 
trusted traveler program. Can you give me a little insight into 
what you know about the thinking, if you know where Admiral Loy 
is coming from?
    Admiral Stone. Yes. It is my understanding that Admiral Loy 
is open to that idea.
    Senator Boxer. Good.
    Admiral Stone. Recently, TSA sent a credentials program 
representative to see me yesterday to talk about how we might 
use these type technologies in the Department of Transportation 
Identification Card. So there is a lot of creative thinking 
about how we might use new technologies along those lines, and 
we are also open to new ideas such as moving the gate screening 
cord and combining it with the checkpoint. And so we have a 
test program here that TSA is sponsoring to change, to look at 
new ideas, to look at new technologies.
    Senator Boxer. Well, I am very happy to hear that, Mr. 
Stone, because the prior folks were fairly close, but I think 
Admiral Loy--and I met with him, and I am very impressed. And 
if you could take a message back to him, and of course I will 
call him myself, that this is something I think would be 
important.
    So perhaps the airport folks could respond to how they feel 
about this trusted traveler type of program, and if you would 
view that as a possible way to go to relieve the kind of 
congestion that you are concerned about. We will not get into 
the machines right now, just go to the trusted traveler.
    Mr. Acree. I would agree with the Senator's comments. I 
think the airport industry is on record as supporting a trusted 
traveler concept. If we are looking for a needle in a haystack, 
the first thing we should be doing is decreasing the size of 
the haystack, and I think the trusted traveler program does 
that.
    Senator Boxer. Ms. Bowens, do you have feelings on that?
    Ms. Bowens. I would agree that the trusted traveler program 
as well as any other innovations that we could bring on board 
would help. At this point, none of that has been discussed with 
us. We have not even been--long before the TSA came in, we 
investigated the availability of this explosive detection 
equipment just to purchase on our own. It was not available for 
us in terms of the numbers of the pieces of the equipment that 
we would have to have. So we are in favor of any kind of 
technology that the FAA or the TSA would approve that would 
help expedite these lines, but right now, that is not available 
to us. We have to deal with what's handed to us today.
    Senator Boxer. I understand. I understand. But that is the 
purpose of this hearing, to make it better, to keep the focus 
on. Because what you are basically saying is, you are being 
told you need to install these machines, and you do not see any 
relief at the ticket counter. And you are concerned that that 
is going to make a very crowded, unpleasant experience for 
folks, and you want to put off doing the interim measures. I 
understand that.
    Mr. Martin?
    Mr. Martin. San Francisco very much favors further 
exploration of trusted traveler programs. We think that they 
can benefit the aviation industry greatly, both in customer 
service but also in aviation safety. Great benefits potentially 
are there. Only 10 percent of our passengers, who are frequent 
fliers account for over 50 percent of our trips. So you can 
well imagine the benefits from a trusted traveler program.
    Senator Boxer. Absolutely. It is huge.
    Mr. Green, would you also favor a trusted traveler type of 
program?
    Mr. Green. I do favor that. I think concepts like trusted 
traveler and I think increased use of technology going forward 
is really going to be the solution, long term, to resolving 
these service issues for the industry, particularly when it 
gets back into a growth mode. Projecting what you are doing 
today without technology and concepts like this in the future 
is a little worrisome, so I really would endorse it.
    Senator Boxer. Mr. Gomez or Mr. Aguilar, do you have any 
comments on this idea of pursuing this at the TSA, developing 
some--perhaps one or two or three systems that you have faith 
in, or perhaps one system that could be a centralized system?
    So again, we understand, some of them, in fact, may want to 
be in the program, they are giving up certain privacy, and that 
is something an individual has to determine. But I know most of 
the folks I know who are traveling constantly would really 
welcome that. Do you think it is a good thing to pursue?
    Mr. Gomez. Good morning, Senator. Ed Gomez from San 
Francisco. I am pleased to be here and address these serious 
issues.
    I think one of the points that I want to make is that we 
all want the same thing. We want people to be able to travel 
and have a sense of security and confidence in the airports and 
other modes of transportation. And I think that some of the 
ideas that are being put forth today, whether we're talking 
about training people and/or baggage, I think that it is still 
a process of evolution.
    As we speak, there are teams of consultants in all of our 
airports and hundreds of airports across the country looking at 
the individual uniqueness of each airport in terms of 
processing people and bags. So I like your ideas about, let us 
look at things in different ways to try to get people through 
but not sacrifice the quality of security. And I do believe 
that identification of people and trying to say that you, as 
Senator, should not be searched six times versus a frequent 
flier that would have a record of travel and a stability, that 
TSA would be able to perhaps look at having them be processed 
in a different way.
    So we are open to different suggestions without, again, 
trying to diminish in any way the level of security at the 
airport.
    Senator Boxer. Mr. Aguilar?
    Mr. Aguilar. Madam Chairwoman, again, thank you for the 
invitation and opportunity to speak.
    I agree with you 100 percent in that there is a threat, 
there is a sense of urgency, and we have to take the technology 
that we have now to address that threat. I am pleased to say 
that TSA is very open to looking at new technology, emerging 
technology. We are familiar with the legislation which you have 
introduced, and I know Admiral Loy is very receptive to that. I 
would just add probably that with this emerging technology, I 
believe TSA would like to have the latitude to be able to 
assess that technology before making a final decision, but we 
are in complete support of contributing to the customer service 
without compromising our security requirements.
    Senator Boxer. I think it goes to what Mr. Acree mentioned 
when he said that you are looking for a needle in a haystack, 
the bad one. And if you have a smaller universe, you are going 
to clearly have a better chance. So I guess now I have two 
messages from me to you which I will deliver to Admiral Loy 
myself, one of course, is not to let these deadlines slip, and 
of course, we have disagreement here.
    I thought the House bill was completely a step back for us 
in terms of delaying the date because, again, the same reasons 
you are giving now, excuses, problems, explanations as to why 
it is difficult, are not going to really change. I want to go 
to the issue of the interim check for bombs, bomb detection.
    Mr. Green, if you were to say one reason why you are 
successful in getting these machines installed, what would it 
be? Were you just ahead of it? Were you just earlier than----
    Mr. Green. Well, I think probably the short answer is we 
got a jump start on it. After September 11, we had the same 
concerns that all airports have and have been expressed here 
this morning. But absent a mandate that says we are going to do 
something later than December the 31st, our view was, earlier 
this year, that we really need to get focused on meeting that. 
So we brought a team, actually brought four consultants in, to 
look at, not only passenger processing, but perimeter cargo and 
all the other issues that we talked about. And we did that 
early, and we did a lot of comprehensive analysis and modeling, 
analyzing the equipment.
    Senator Boxer. You mean right after September 11?
    Mr. Green. This was, like, spring of this year. It was not 
last year but this year. But for several months, we have been 
engaged in that. And I think when the TSA came in and got 
serious about establishing some protocol and some procedures 
for our airport, we were fortunate enough to have done a lot of 
work that has sort of come together at the right time. And I 
think that put us in a position of not being delayed, and that 
is why I think--given the work that our consultants did, and I 
think it is shared by Admiral Stone--we are optimistic that, if 
we have the equipment and the people in place, then we can 
comply. But I guess the short answer really was we got started 
early.
    Senator Boxer. Right. I think that is an important point, 
and I think there is a lesson here. I mean, we cannot wait. 
Anyone who wants to get us is thinking every minute, is 
planning every minute, is getting ready every minute. And we 
are sitting back and saying, gee, this is hard; gee, we cannot 
do it. I just do not accept it, and I just want to push a 
little harder on the point.
    In terms of the interim solution that none of you--well, 
Mr. Acree, you have a different issue. Your problem is you just 
now got somebody in place from the TSA who is a permanent 
person. Is that correct?
    Mr. Acree. Just this week, he was onsite.
    Senator Boxer. At this point, you have no plan in place 
even?
    Mr. Acree. Correct.
    Senator Boxer. So I hope, Mr. Stone, that you can take that 
back because you are here representing TSA. They've been 
disadvantaged because they are so late in getting someone on 
board, and they are a growing passenger airport. They need to 
have some attention paid over there. That's why I have 
different airports here because I think sometimes we get lost 
in the shuffle when we do not have the huge international 
airports. Is yours called an international airport?
    Mr. Acree. We are an international airport.
    Senator Boxer. Smaller international airports, they do not 
get the attention. So we need immediate attention. They had a 
41 percent failure rate----
    Mr. Acree. Yes, ma'am.
    Senator Boxer.--at the screening. I mean, that is 
outrageous. The acting Federal person, the acting head, did not 
know anything about it. They need attention. So that is a 
message. Sacramento needs attention. They have good people. He 
is a very good man, and they just need some direction of what 
they are going to do.
    But in terms of this interim--what do you call the machines 
that would be the interim? The trace detection machines, right? 
Here's a question that I have for you, Mr. Martin: You are 
concerned that they are going to be put in the middle of the 
lobby and be a mess. Why is it that we have to have the 
passenger there with the bag----
    Mr. Martin. Why is it that we have to have a passenger with 
the bag?
    Senator Boxer.--that's going to be checked?
    Mr. Martin. Because there is a particularly high rate of 
false alarms with the trace detecting equipment, and the 
passenger needs to be there with the bag when the screening 
agent opens the bag.
    Senator Boxer. When it is done with the trace detection as 
opposed to the others?
    Mr. Martin. Right. The EDS equipment did not result in 
nearly as high of a false alarm rate.
    Senator Boxer. What is the false alarm rate?
    Mr. Martin. When there is a positive read, the bag and its 
contents need to be investigated further. The EDS also has----
    Senator Boxer. I said, what is the rate? What is the 
percentage failure? Out of the 10 that--if they find 10 traces, 
how many would be wrong?
    Mr. Martin. More than 30 percent of the total bags produce 
false reads. Overall, the EDT equipment----
    Senator Boxer. Wait. Then I am still confused. If you are 
doing bomb sniffing, where is that done?
    Mr. Martin. It is done throughout the terminal building.
    Senator Boxer. So the passenger is not there with the bomb 
sniffing, right?
    Mr. Martin. Sometimes there are passengers; sometimes there 
aren't.
    Senator Boxer. If the problem is--and let me just take this 
to Mr. Stone--if the problem is, in terms of the movement, that 
there are all these passengers around, I just want to ask you 
this question. If you had a false positive with a dog sniffing 
situation, you would do a hand search. The passenger does not 
necessarily have to be there, right?
    I mean, my question is, why does the passenger have to be 
there when you do the trace, even with a third of the problems?
    Admiral Stone. I would like to ask Mike Aguilar to describe 
that.
    Senator Boxer. OK. Mike?
    Mr. Aguilar. Yes, ma'am.
    The passenger is not required to be there. However, I think 
most airports, just out of respect for privacy for the 
passenger, just does allow them to accompany their baggage. But 
as far as an absolute requirement for the individual to be 
there, that is really, again, in respect for their privacy, if 
they wanted to accompany their bag. As far as the false alarm 
rate only, you are absolutely right----
    Senator Boxer. Wait a minute. When you check your bag in 
and it goes through a different check, you are not there with 
the bag. What's the privacy problem? I mean, in other words, 
when you are packing a bag, you know it is going to be checked. 
So already you are making a decision. If you do not want to 
pack that special thing, do not pack that special thing, 
whatever it may be. But the point is, we all know we have to 
check bags.
    I mean, what I hear, if that is the reason--is that the 
reason is privacy concerns?
    Mr. Martin. Privacy concerns and specifically I do not know 
of a single U.S. airline or foreign airline that allows a bag 
to be opened without the passenger being present. So in our 
international terminal where we have an in-line bag system, 
four or five passengers a day are called down to the bag 
screening room for the bag to be opened.
    Senator Boxer. So in other words, when you do the hand 
searches, the passenger is always there?
    Mr. Martin. Yes.
    Senator Boxer. So if the dog sniffs something and there has 
to be a hand search, you go find the passenger?
    Mr. Martin. That's right.
    Senator Boxer. How do you do that? Page them? What do you 
do?
    Mr. Martin. We page them or we contact the airline. We 
primarily work through the airlines in contacting passengers.
    Senator Boxer. And if it is an EDS?
    Mr. Martin. The EDS does not produce the high false alarm 
rate. They are also more than twice as effective in identifying 
if there is an explosive device.
    Senator Boxer. Now, what happens if the machines that we 
all want, the big machines, find something that is 
questionable? Do you then call the passenger before you open 
that bag too?
    Mr. Martin. We contact the airline, the airline brings the 
passenger down to the screening room.
    Senator Boxer. All right. So you bring the passenger down. 
So why do not you bring the passenger down with the other, with 
the trace----
    Mr. Martin. We'd have to bring 30 percent of the passengers 
down with the trace detection equipment given the false reads, 
and there is no way that the industry could handle that.
    Senator Boxer. Do you agree that there is a 30 percent 
failure rate?
    Admiral Stone. No, I do not. That's not the figures that I 
would be----
    Senator Boxer. What are your rates?
    Admiral Stone. I can only brief qualitatively that the 
error rate is such that it will not cause the significant 
backups that were mentioned here.
    Senator Boxer. So we have a disagreement on the failure 
rates. How do you base your numbers, Mr. Martin? Where do you 
get your figures?
    Mr. Martin. My figures are from a Reason Foundation report.
    Senator Boxer. A what? I am sorry.
    Mr. Martin. A Reason Foundation----
    Senator Boxer. ``Reason.''
    Mr. Martin. ``Reason.''
    Senator Boxer. Who are they?
    Mr. Martin. It is a foundation based in Southern 
California.
    Senator Boxer. What do they do?
    Mr. Martin. They are very active on a number of issues, 
commenting on privatization and, commenting on a number of 
issues related to aviation----
    Senator Boxer. Are they scientists or are they----
    Mr. Martin. I am sorry. I cannot tell you further 
background.
    [Committee discussion off the record.]
    Senator Boxer. Well, from what I understand, it is a group 
that is trying to privatize airport security. They have another 
agenda. So I would just say----
    Ms. Bowens, you want to support Mr. Martin there, what he's 
saying?
    Ms. Bowens. I have the same information that he has.
    Senator Boxer. From the Reason Foundation?
    Ms. Bowens. We actually had the Reason Foundation work. And 
just reading in general industry information on the ETD, that 
is the number that just continues to pop up, is 30 percent.
    Senator Boxer. But TSA does not agree.
    Ms. Bowens. They do not have a number. They did not give a 
number.
    Senator Boxer. Mr. Stone, would you repeat what your 
information is.
    Admiral Stone. I said I had qualitative assessments that 
that rate that was mentioned by that study is too high and 
that, in fact, will not cause the type of backlog that was 
mentioned.
    Senator Boxer. Mr. Gomez?
    Mr. Gomez. Senator, I think we all acknowledge that EDS has 
a higher reliability rate than the trace detection machines, 
but I totally agree with your point that time is an issue here. 
And I think that in-line systems really are certainly faster, 
will inconvenience the passengers less, but more expensive. It 
is going to take a lot more time. And all of us--certainly 
Congress has given us a deadline to meet, by the end of the 
year.
    So I think that with the help of the consultants that are 
on board right now, they are going to work with each airport. 
And as you know, flying around the country, each airport is 
very unique, very different given the circumstances of where it 
is and the environment that--these machines will still allow us 
to find a lot of material that could be very hazardous to the 
people and the airplanes and that.
    We are going to use these hybrid systems again, even though 
they are not going to be on-line, and the other machines that 
would be better, will be forthcoming. But we cannot delay, and 
I think these machines still--we must move forward with that to 
meet the mandate of Congress.
    Senator Boxer. You oversee San Francisco?
    Mr. Gomez. Yes, ma'am.
    Senator Boxer. So you and Mr. Martin have a little 
disagreement here.
    Mr. Gomez. We have talked about this a lot, and let me tell 
you this: San Francisco has done a marvelous job of being 
proactive, much like Los Angeles is, that because of their 
proactive nature they immediately started to change the 
conveyer systems and that.
    We are very proud to say, by the end of the year at 
international terminals, all bags going out of the country will 
be screened for explosives on an in-line system. But we do not 
have the time, we do not have the money, we do not always have 
the wherewithal to do that with domestic. But I suggest we 
cannot delay, and John and I have discussed this a lot. And 
like you said already, Senator, that time is an issue, and I 
think the citizens trust us to get this in line and in place as 
soon as possible.
    Senator Boxer. Well, I would suggest that--I am going to do 
a little research on this foundation. I think they have another 
agenda. And I would like to have, Mr. Stone, if you could take 
a message back to TSA, what I consider to be more science-based 
study of the failure rate. But be that as it may, the bottom 
line is if you do not do this, you are going to have some bags 
that are going to get through. Because the bag match, we all 
know that does not protect us against a bomb.
    So I would say to TSA--and again, I have my friends whom I 
love who do not agree with me here who are going to push for 
change in the law. I am going to fight against changing the 
law. So I would move as if the law would not be changed. 
Because you'll be back here next year and you'll ask me the 
same thing. Because the problems you are describing are not 
going to get away that easily.
    So you might as well just face it, just like we had to face 
that we had to send our troops to Afghanistan. No one wanted to 
go. It was a horror. It was a nightmare. We did not know what 
we were going to face. We did it and we did it well and we did 
it right, and we continue to have to be there and make sure we 
finish the job right and make sure there is stability there. 
Think about that challenge compared to your challenge of 
testing a bag that is lying in front of your feet.
    Now, there may be people who will give you permission. If 
you asked me when I am checking in, me--here's my bag, I am 
checking it in, and if the person at the counter says to me, we 
want to check your bag for bombs, but we do not have an EDS 
yet; as an interim we have got this trace detection machine. 
Here's an option: You can go to the gate, relax, get on your 
plane, or you can stand by your bag. Give people a choice.
    Perhaps half of them or more will say, fine, as long as it 
makes it onto my plane. Some of them will not want to leave 
their bag, they will go. I think there is some innovative ways 
you can deal with the public. The public is more forgiving than 
you seem to think in your testimony. You are going to have a 
few people who are annoyed that they are slowed up, but most 
people want to get there safely. I mean, 99.9 percent, is my 
feeling. And if they know there is a little bit of an 
inconvenience, so be it.
    Mr. Green, you did not mention in your opening the failure 
rate at the screening that was discovered by the Federal 
Government when they tested.
    Mr. Green. The 41 percent?
    Senator Boxer. Yes. The 40 or whatever, 40 or 41 percent 
failure rate. Could you discuss what's been done at your 
airport to improve that situation?
    Mr. Green. Well, we were certainly concerned to get those 
numbers. And the thing we needed quickly was to get an FSD in 
here, and, of course, Admiral Stone is here. I think the 
combination of supervisory attention at these checkpoints, when 
they begin to get better trained people in here, raise the 
standards, manage the operation a little more effectively than 
perhaps it has been over the past few years. I think we are 
very confident we will not have a problem here in LA, but that 
was a little disconcerting. It was a small sample size, but 
once was too many and it was bothersome.
    Senator Boxer. Mr. Stone, having come on board with that 
problem, you came right after that, what did you do? Without 
giving away any secrets, did you take that as one of your first 
responsibilities, to get that down to zero?
    Admiral Stone. Exactly. That caused me significant concern 
when I saw that, and I think the first thing as a leader is to 
bring the urgency for change. We cannot live with that type of 
performance. Even though we are Federalizing in an October 
timeframe, between now and October is a long time in terms of 
the current threat. So an urgency for change, which I conveyed 
when I got to the airport to the screening managers, was the 
first step.
    Senator Boxer. And the screening managers are Federal 
employees at LAX?
    Admiral Stone. These are contractors that gathered at the 
airport. When I arrived, I asked to meet with them and talk 
with them.
    Senator Boxer. They are contractors. Will they become 
Federal employees? Will that all be changing?
    Admiral Stone. That will be part of the Federalization 
process as we assess through NCS Pearson. And that process is 
starting at the assessment center to see which of our current 
employees meet the standards, and then we are very keen to 
retain all those that do.
    Senator Boxer. But now, have you tested again, in your way, 
some spot checks? Do you spot check?
    Admiral Stone. The TSA does.
    Senator Boxer. That is what I mean.
    Admiral Stone. I have not since I have been here. After the 
promulgation of the standard operating procedures by TSA and 
provided to the contractors as the standard to which to 
measure, both--the contractor does their own self-assessment, 
and TSA has sent out people to test and provide feedback to the 
contractors on corrective actions that need to be taken.
    The contractors were then required to provide a plan of 
action to correct any mid- to long-term deficiencies, but to do 
on the spot corrections at the time of the test. So that 
program is in place, and we will do continuous improvement up 
to the day we Federalize.
    Senator Boxer. Well, I think it is very important because 
when Secretary Mineta said, well, those are the old folks--old 
folks, new folks, some people do not care. They want them 
trained. They are out there. They are working for us, and they 
are working for the people to protect the people. So I hope 
that--and this is a message to the TSA folks--that you will 
conduct some of your own little tests just quietly, randomly, 
just to see that things are improving.
    Now, Mr. Acree, I am very concerned about Sacramento. I 
think Sacramento has been neglected. I feel that way in my 
heart, and I am upset about it. I am very delighted to hear you 
have a new person. Have you met with that person?
    Mr. Acree. Yes. We met this week.
    Senator Boxer. What is his name?
    Mr. Acree. William Wade.
    Senator Boxer. William Wade. And you expressed to him your 
concerns that you do not have any plan about the high failure 
rate and so on. Do you feel good that he's wrapping his arms 
around these issues?
    Mr. Acree. I met with him, it was his second day on the 
job, so I do not think he's got his arms around that issue yet. 
But we are optimistic that--as SFO, LAX, and San Diego have 
experienced, we expect to have a positive working relationship. 
And we think now that he's on board, we'll get some results.
    Senator Boxer. Good. Well, I am going to talk to him 
personally because I am very worried that you have--of all the 
airports here, my sense is you have the longest way to go in 
terms of having the master plan, and you've been very candid 
about that. So I want you to know that I am going to help get a 
little special attention over there because it worries me. San 
Diego and San Francisco are complaining about, you know, 
decisions that have been made to put certain machinery in their 
lobbies, and you do not even know what plan there is for 
Sacramento to complain about or not complain about.
    Mr. Acree. We like to say that we aim to please, please 
give us some place to aim. That is where we are at.
    Mr. Aguilar. Senator, if I could interject, not to become 
defensive, but as of February when the TSA took over all the 
airports, we did not neglect any of the airports. In fact, we 
placed at every airport, pending the appointment of an FSD, an 
interim Federal security representative. I have not been to 
Sacramento. I have to believe that they have an interim 
secretary.
    Senator Boxer. I talked to her----
    Mr. Aguilar. Yes, ma'am, and----
    Senator Boxer.--and she did not even know the results of 
the TSA tests on screeners. She said she was not even told, and 
she was the acting person. I am just saying, look, it is a new 
agency; we are finding our way. And it is not about blame. It 
is just that if I talk to an acting head--I mean, if you were 
sitting there--you are the head of security and at a very 
important airport, as all of these airports are, and you did 
not know that your own boss's agency conducted a test and you 
failed it by 40 percent, you would have to read it in the 
paper--she read it in the paper--I mean, this is bad.
    Now, the acting head of LAX was much more informed. He 
knew, he was told, he was informed, he was making changes and 
improvements, and he was excited that you were coming. This was 
a different story. There was no word that anyone was coming. 
And I believe that I might have helped stir the pot in that 
regard just to move it a little quicker because when I talked 
to TSA, they said, oh, Sacramento. I am afraid that is a long 
way down the list. So I do not think it is a question of being 
defensive. It is a fact that the acting head did not know that 
there was this failure rate. It is just a fact. I mean, we are 
all human and things happen, but--I cannot say what the bumper 
strip says, but things happen. But things do happen that are 
not good.
    Just trying to recap where we are: do we all agree that a 
trusted traveler program is very worth pursuing in order to 
lessen our hunt for the bad folks? I think there is an 
agreement there. That is very good. And I think if TSA--and in 
the beginning, TSA was not open to it, but clearly with the new 
leadership, they are open to this. So that is one very 
important thing that I am going to work on to try and develop 
and talk to Senator Hollings and Senator McCain and really 
start to move on this because we will do much better if we 
lessen the problem. And as far as what Mr. Martin said, that--
if let us just say half of the people signed up who are the 
frequent fliers, that would diminish the universe by how much 
do you think, in your airport?
    Mr. Martin. Like 25 percent.
    Senator Boxer. So if half the frequent fliers did this, 
you've got a 25 percent easier job. Now, that is, of course, 
knowing that, as Mr. Gomez stresses, it has got to be really 
good technology and cannot be counterfeited and the rest of it. 
And that is, when we get to our technology show--there are a 
few things there. I do not know if it will deal with that, but 
certainly here in California we can figure out a way to make 
that work. So that is number one.
    Number two, there is a disagreement between the Federal 
folks and a couple of local airports on the error rate on the 
trace detection systems.
    Admiral Stone. Senator, I have a comment on that.
    Senator Boxer. Yes.
    Admiral Stone. Since we have these trace detection systems 
here at the airport now, here at LAX, we have a protocol in 
effect that if one machine you get a hit on, you go to another 
one. And if that does not, then you can clear, you have 
supervisors come. So the point made that that will take time in 
December when we have our baggage checked in that way is true. 
But I am not getting 30 phone calls an hour telling me, over 
here at the terminal, that we have a problem.
    This is being resolved through time and testing and 
quantitative assessment by people. So as I look at December, I 
realize, as you stated, there is going to be some churn, some 
delay, but the costs far, I think in terms of security, 
outweigh the extra time that is going to be spent to resolve 
the error rate on ETDs.
    Senator Boxer. So the trace detection system, that is a bit 
of a conflict here. And my job, I want to get some more data, 
some more data on the accuracy or inaccuracy of those tests and 
the ways that you can get around it, which is to have a double 
check, and also the issue of passengers getting a choice to 
whether they want to stay with the bag or just go right to the 
plane. So we have an issue there.
    There is a disagreement between me and a couple of our 
local airport people in terms of slipping the date. I view that 
as a terrible way to go. And as I said, you know, it is like 
when you are a kid and you are doing your homework, it is 
really, give me another deadline, can't I do the test next 
week? You are still working up to the last minute. It does not 
work. We have a problem. We have to deal with it. We have 
people working overtime trying to hurt us, and we have got to 
act. And it is my view that one more horrible disaster is going 
to destroy what you are trying to build. That is what I want to 
put in your head. One miss, one horrible miss because somebody 
said, oh, well bag match will work. Well, bag match does not 
take the place of these tests.
    Let us see, I want to get back to these failure rates that 
we experienced at Sacramento and LAX, Mr. Stone, because I am 
not clear. What is the deadline for the new hires?
    Admiral Stone. Our intent is in October to Federalize LAX. 
So this week NCS Pearson & Company was contracted by TSA down 
here in Los Angeles, and we've opened up an assessment center. 
And they are currently in the position of recruiting folks that 
we are going to need to Federalize our force in October.
    Senator Boxer. Mr. Stone--and again, you are just so nice 
to take on this job of answering for people who are not here--
why is there no plan for Sacramento? Why are we getting this 
news that there is not even a plan there that they can argue 
about? Ms. Bowens, Mr. Martin, they at least have a plan they 
can argue about, or they think they do. You do not have a plan?
    Mr. Martin. We do not have a definite plan. We were told 
that it will be several weeks before we receive the plan and 
then another approximately 6 weeks, I believe, for the 
architectural and engineering and design work to be done, and 
then a couple months remaining for any construction work to be 
completed. And that's our great concern.
    We want to do all we can to be ahead of the curve on 
security. We recognize it is the TSA's responsibility, and I am 
purely providing my assessment of the lack of effectiveness of 
the trace detection machines that are not effective as compared 
to explosive detection devices on an in-line operating basis.
    Senator Boxer. We know. That is why they are interim and 
not permanent.
    Ms. Bowens, you do not have a plan either?
    Ms. Bowens. We are about at the same spot as San Francisco, 
maybe just a week or two ahead of them.
    Senator Boxer. So could you respond to that, Mr. Gomez?
    Mr. Gomez. Yes, Senator. I told you that there were several 
consulting contracts out; Boeing is doing the baggage 
screening, and Lockheed Martin is going to be doing the 
checkpoint screening; and that the airport management met with 
these people already and preliminary kind of input was 
established in terms of what they would like to see. Obviously, 
they want the least amount of interruption to the passenger 
screening; and that they do not want a lot of modifications, 
although TSA is going to pay for that.
    So keeping all those things in mind, we feel that within 
two to 3 weeks at the most, we are going to have some finalized 
plans that will take into account all of the input, and then 
based on that, then we're going to be able to do the 
reconfigurations to allow us to meet the mandate by November 
19th.
    All three of our airports will have the new standards for 
all the screeners. They're going to be applied. They're going 
to be--the people are going to be operating at higher level 
with their equipment, with better configurations. So I think 
that we're going to be able to meet that. So the plan will 
evolve from that.
    Senator Boxer. Mr. Aguilar, is that----
    Mr. Aguilar. Yes. In fact, TSA has contracted, as you know, 
Lockheed Martin to conduct the passenger surveys at all the 
airports and Boeing for the checked baggage. And it is my 
understanding, in addition to LAX, San Francisco, and San 
Diego, that we currently have both Boeing and Lockheed Martin 
at Sacramento doing their assessments.
    I would hope that those assessment teams are working with 
the interim Federal security representative in Sacramento, as I 
know all of us have shared with our airport managers the status 
of that assessment. And from that assessment, we will develop 
our plan--but we are at the beginning, merely at the beginning; 
that is what the assessment does--as to the best resolution for 
the introduction of the explosive detection systems and the 
reconfiguration of the checkpoints.
    But all the airports and my understanding, again, for 
Sacramento, that is currently being done, and certainly at San 
Diego. And I know I share all that information with Thella 
through my process action team. So again, that information----
    Senator Boxer. So no plan yet written down, but you are 
discussing what the options will probably look like. And you 
are responding to that by saying you are worried about the 
interim solution.
    Let me just ask, Mr. Martin, Ms. Bowens, Mr. Acree, and Mr. 
Green, have these consultants talked to you, the Lockheed 
people and so on?
    Ms. Bowens. We've had meetings.
    Senator Boxer. And you've expressed your concerns, the 
movement and so on. And you, Mr. Acree?
    Mr. Acree. The TSA's contractor, we met with them, the 
first time, 1 month ago today on July 8th.
    Senator Boxer. Who was that contractor?
    Mr. Acree. That's Jim Harris.
    Admiral Stone. Senator, I have a comment concerning LAX on 
that.
    Every week we are meeting with Boeing, Lockheed Martin, Los 
Angeles rural airports. There is an urgency here that this is 
not a measured approach. We're at war with terrorism. Folks at 
the table know that. So I think that is the key here, at least 
for LAX, is that sort of mind-set about moving on----
    Senator Boxer. Good. Well, I think I would encourage you, 
as the TSA people, to bring in your airport folks into these 
conversations, these roundtables, as often as possible so that 
they can make sure that their voices are being heard. Because 
there may be ways to--if the problem is congestion in the 
lobby, there may be answers to that. I tried to put through a 
few suggestions of my own, but they might not be the right 
ones. But there may be ways to handle it in a way that it 
works.
    I have been at foreign airports where this is done. And, 
yeah, it is a little chaotic, but you sure feel good that 
somebody is checking bags for bombs. That is the bottom line. 
You want to make sure there is no bomb on that plane, and that 
is the thing. And if it is, you hope it is in a kevlar 
container, which we are going to show later. Because if it is 
in a kevlar container in a cargo hold, then apparently it will 
not go up. It will blow up, but it will not cause a fire. It 
will be contained in a bin.
    Mr. Stone, does the TSA plan to reimburse local police 
departments and so on for the security that is being provided 
in the lobbies?
    Admiral Stone. The arrangement for that is one of the 
issues that I am currently working with TSA to find out, that 
financial pipeline and how that is going to work. So when Mayor 
Hahn called me after the Fourth of July and told me of his 
plans, we have been discussing that issue. So I do not have any 
answers, but I can get back you.
    Senator Boxer. That is a very big issue because I think 
that we put a price, a security tag on the ticket prices, and 
you know, security is security. And if you are standing at the 
counter, you should be protected. It seems to me if the Federal 
Government's taking over security at airports, then it needs 
to--I agree with Ms. Bowens--utilize the local people to do it, 
but reimburse. It is an important thing.
    Mr. Green. If I might, Senator. I think any help you can 
give us in that regard would be appreciated because, obviously, 
the price you spoke to is going up considerably. The costs we 
are incurring going forward for security are staggering.
    Senator Boxer. I would like to hear from all of you on the 
added costs. Are you doing more security at the check-in 
counters?
    Mr. Acree. Yes, ma'am. We have deployed additional 
uniformed and nonuniformed law enforcement officers as well as 
additional canine teams.
    Senator Boxer. Good. And you as well, Ms. Bowens?
    Ms. Bowens. We have increased our police presence. We are 
on the list to receive additional canine teams. Our cost 
overall for increased police security at the airport has gone 
up about $3 million.
    Senator Boxer. Well, when I spoke to Admiral Loy, I was 
very pleased with his attitude on the point, and that was 
different from the prior individual. And so I am hopeful that 
we can resolve that. But do let me know; detail some of these 
costs.
    So let me sum up here. This has been very helpful to me. 
You know how I know that? Because I have a headache. And if I 
get a headache, it means that I have been concentrating and 
trying to figure this all out. That is how I know.
    We are going to work with the local people to make sure 
that you are reimbursed for your expenses that deal with the 
added security at the check-in. So please let me know. I think 
we have a sympathetic ear at the TSA. We just have to figure 
this out.
    Second, I hope that you will, instead of fighting the 
deadline, which is easy to do, work with us, please. You know, 
I will say this: if the Senate does vote to agree with Dick 
Armey and the House people and you get another year, you are 
not going to get any other years. It is only going to work 
once. So the bottom line is, you are going to have to do what 
you have to do. No one is going to come and arrest you, you 
know, if every little ``i'' is not dotted, but let us do what 
we need to do.
    I want to assure you, as a member of the traveling public, 
that a little inconvenience is not going to worry me. I want to 
get off the plane and see my grandchild at the other end or 
make my meeting at the other end, call my husband when I get to 
the other end, not from the airplane saying, ``I love you.'' 
That is not what I want to do, and I do not think I am very 
different from most.
    You are going to have a couple of people who are impossible 
to deal with, but that is our life. And you will always have 
people who are difficult, whether there is a long line or a 
short line, and we will deal with that as we have to. But I am 
very sympathetic to the challenge. I also think there are ways 
to get around false positives. You heard some of them from Mr. 
Stone, some backup tests, et cetera, that can work.
    Why do not we try to meet the deadline, please, I say to my 
friends out in there in the field. I compliment LA. I hope, I 
say to my TSA people, that you will stay on top of those 
screeners because we cannot handle a 40 percent failure rate. 
It is unacceptable. That is a giant hole in the dike that is 
not good. So let us work.
    Let us go and see some of the innovations. One of the 
things that I am working on is to try and get a better way, 
when someone gives an ID to a check-in person, to know if it is 
a false ID. And we have some demonstrations on that.
    So I want to thank all of you for being here. I know these 
are hard things to deal with, but we are all on the same team. 
The bad guys are on the other team. So let us stick together, 
unified, and defeat their attempts to harm us.
    I thank you very much, and we stand adjourned until we meet 
in the other room. Thank you.
    [Whereupon, the field hearing was adjourned.]

                                  <all>

</pre></body></html>
